No,
IN THE
SUPREME COURT OF THE UNITED STATES
**ON PETITION FOR WRIT OF CERTIORARI**
To The Supreme Court Of The State Of Alabama:
On Petition For Writ Of Mandamus, ECT.;
In re: EX PARTE KALIM A.R. MUHAMMAD,[& TRUST], The Class of The
MUHAMMAD FAMILY, And The SOVEREIGN CITIZENS OF ALABAMA, And
AT&T CUSTOMERS SIMILARLY SITUATED [And AT LARGE], K.A.R.M CLASS
REP., et, al,.
v.
*******

AT&T, INCORPORATED, et. al.,

*******

NOTICE OF COMPLIANCE
As required by Supreme Court Rule 33,1 certify that the cert petition entitled
above and due on or about May 1, 2019 contains 8994 words, excluding the parts of
the petition that are exempted by Supreme Court Rules. Our count of 8994 words
are presumed correct by the word count of Microsoft Word 2007 program. We
presume the matter affords a 9,000 word composition and herein declare an
inherent motion to excusable neglect and a grant of any inadvertent excess. I
declare under penalty of perjury that the foregoing is true and correct.
/s/Kalim A. R, Muhammad
1043 County Road 306
Selma, Alabama 36703
April 29, 2019

RECEIVED
MAY 2 - 2019

